                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
The National Nuclear Security
Administration's Neutron Generator Activities




 OAS-L-14-11                          August 2014
                                 Department of Energy
                                   Washington, DC 20585

                                        August 20, 2014


MEMORANDUM FOR THE MANAGER, SANDIA FIELD OFFICE



FROM:                    David Sedillo
                         Director, Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The National Nuclear Security
                         Administration's Neutron Generator Activities"

BACKGROUND

Neutron generators (NG) are nuclear weapon components that have a limited lifetime due to their
use of tritium, a radioactive gas which decays over time. Periodic replacement of these
components is necessary to sustain weapon system functionality and is an on-going process
managed by the National Nuclear Security Administration (NNSA) and the Department of
Defense. NNSA's Sandia National Laboratories (SNL) carry out NG design and production
through Limited Life Component Exchanges (LLCE) and weapon refurbishment activities such
as Life Extension Programs (LEP). SNL has been responsible for these agency missions since
the early 1990s and has been producing NGs since Fiscal Year (FY) 2002. SNL's NG Enterprise
performs activities related to planning, developing, qualifying and sustaining NGs for all weapon
systems.

The NG Enterprise currently has two product families in production. The first, which has been
in production since 2002, is the large NG. The second is the small NG, which was introduced
into production in September 2013. The main difference between the two product families is the
size and configuration of the neutron tubes (a miniature linear accelerator). The neutron tubes
represent a large portion of the NG development and production effort. SNL is also developing a
new product family, the electronic NG, which uses the same neutron tube as the small NG and is
scheduled to begin production in FY 2018.

Due to the importance of the NG Enterprise's mission, we initiated this audit to determine
whether NNSA is effectively managing NG activities for weapon systems.

RESULTS OF AUDIT

Our review disclosed that NNSA and SNL face a number of challenges and risks with NG design
and production activities. Specifically, we noted that SNL will need to significantly increase NG
production over the coming years to meet LLCE and LEP requirements. Other challenges and
risks include those associated with developing, producing and testing new NG designs,
maintaining a quality vendor base, mitigating work stoppages resulting from equipment failures
and working within budget constraints. In addition, we noted that SNL had not established a
costing methodology that consistently included a fair share of infrastructure costs to ensure full
cost recovery for NG units to be built for the United Kingdom (UK). To its credit, SNL
recognized that its costing methodology had been inconsistent and initiated an improvement
activity to update both the NG product cost and the basis for the product cost calculation so that
it was more representative of actual NG production costs. This resulted in a significant increase
to the NG product cost estimate. As a consequence, NNSA retracted the proposed cost estimate
provided by SNL and asked SNL to review their cost model to ensure appropriate cost
methodologies are used. NNSA and SNL are taking actions to address these challenges and
risks.

NG Production

As the NG production agency for NNSA, SNL is striving to meet significant increases in LLCE
and LEP requirements over the coming years. In FY 2013, SNL produced close to 600 units;
however, it needs to ramp up production to achieve a total production level of 900 units per year
to meet FY 2016 requirements. Currently, SNL is producing NGs to meet the LEP requirements
for the W76 weapon system and the LLCE requirements for the W78 and W87 weapon systems.
Additional LLCE requirements in the coming years will add to SNL's workload. Specifically, to
meet future LLCE requirements, SNL will need to begin production of NGs for the W80, B83,
B61-11, B61-12, and W88 between FY 2015 and 2019. Further, SNL will also produce partially
built NG units for development purposes, which assist with NG qualification and validation of
production processes. Although some weapon systems share a common type of NG (i.e., large,
small and electronic), the testing and qualification requirements are different. Below is a list of
weapon systems showing the associated NG type and planned first production year.

                            Weapon            NG            Begin
                            System           Type         Production
                             W76             Large         Underway
                             W78             Large         Underway
                             W87             Small         Underway
                             W80             Small           2015
                             B83           Electronic        2018
                            B61-11         Electronic        2019
                            B61-12         Electronic        2019
                             W88             Small           2019

To achieve increases in the NG production schedule, SNL has invested resources and expended a
high level of effort to improve efficiencies in producing the small neutron tube, and has
demonstrated the ability to achieve the needed neutron tube production level over a three week
period. Specifically, in FY 2013, SNL demonstrated the ability to achieve 40 tube starts per
week (up from 24 in FY 2012), while maintaining a 66 percent average production yield of
useable neutron tubes (up from 25 percent in FY 2012). However, it is not certain whether SNL


                                                 2
can sustain that production-level and yield over an extended period of time. We noted that as of
May 2014, SNL was producing at an average rate of 12 tube starts per week, which would not
meet the planned production schedules. SNL officials stated that the production level was down
to 12 tube starts due to budgetary constraints. To ensure that it meets production requirements,
SNL plans to increase its start rate to 24 tubes per week in late FY 2014 and to over 30 starts per
week in FY 2015. In addition, although neutron tube production yields have improved since FY
2012, they have not been consistent. For example, early in FY 2014, the yields were 33 to 49
percent of neutron tube production starts due to unidentified quality issues with one lot of
material which had met inspection and drawing requirements.

SNL plans to mitigate risks in meeting the increased NG production requirements by gaining
production efficiencies; and, by increasing expenditures (dependent on funding) for materials
and components, machining and tooling, and additional staffing. For example, SNL optimized
equipment usage by repairing and requalifying equipment and testers to be utilized as backups.
To their credit, NNSA and SNL created annual and long-term schedules to meet production and
shipping requirements, and established project milestones and related performance measures for
the NG Enterprise.

SNL is also addressing challenges and risks associated with developing, producing and testing
new NG designs, maintaining a quality vendor base for materials and components, and work
stoppages resulting from equipment failures. For example, because increased testing of new
NG designs may create bottlenecks for product acceptance activities, SNL is developing a plan
with the Product Acceptance and Supplier Quality Organization that includes increased resources
and shortened production processing times. Further, to maintain a quality vendor base, SNL
monitors vendor performance, including quality and timeliness of deliveries. If a vendor begins
to show deterioration in these categories, SNL may proactively reassess a vendor's performance
ahead of the 3-year rating requirement to ensure that the vendor continues to meet quality and
timeliness requirements. Finally, SNL plans to build up a finished goods inventory to help meet
long-term NG production requirements and to mitigate any down time due to equipment failures
and any other issues that may arise.

We also noted that in response to revised Air Force requirements and FY 2014 budget
constraints, SNL plans to revise W87 NG production builds to better align with Air Force
requirements and minimize costs. This action will include a partial drawdown of the finished
neutron tube inventory to meet the annual production requirements for the W87. SNL also plans
to take further actions to minimize the risk posed by the drawdowns of finished neutron tube
inventories on its ability to meet future NG requirements.

NG Costing Methodology

SNL had not established a costing methodology that consistently included a fair share of
infrastructure costs to ensure full cost recovery for NG units to be built for the UK. To its credit,
SNL recognized that its costing methodology had been inconsistent and initiated an improvement
activity to update both the NG product cost and the basis for the product cost calculation so that
it was more representative of actual NG production costs. This resulted in a significant increase
to the NG product cost estimate. As a consequence, NNSA retracted the proposed cost estimate



                                                 3
provided by SNL and asked SNL to review their cost model to ensure appropriate cost
methodologies are used. We noted that changes in costing methodology have contributed to
price fluctuations for NG units sold to the UK. SNL is working towards designing an improved
cost tracking method that will allow it to more accurately track the variable costs and overhead
costs associated with all units produced, including the UK units.

Specifically, in August 2013, in preparation for delivering NG units to the UK in FY 2015, SNL
developed an estimated cost per unit of $146,000. The unit cost was based on the actual number
of W76 NGs completed in FY 2013, and was derived using SNL's Oracle Manufacturing
software system to apportion a fair share of FY 2013 infrastructure costs that provided a benefit
to the NG production, such as engineering labor, manufacturing supervision, supply chain
management, and infrastructure support. SNL briefed this cost estimate to the UK Program
Working Group in February 2013. In September 2013, NNSA sent a memo to the UK retracting
the $146,000 estimated unit cost and replacing it with an estimate of $97,000. The memo stated
that further review of the cost model by SNL indicated several inconsistencies and noted that
SNL will continue to work internally and consult with the NNSA's Kansas City Plant (a
production plant with experience manufacturing weapon components for entities other than
NNSA) to implement appropriate costing methodologies. NNSA officials noted that the $97,000
estimate was used as a placeholder, pending SNL's implementation of appropriate costing
methodologies. The revised cost estimate was derived by inflating the FY 2011 actual unit cost
that was charged to the UK for 2 years. According to the SNL officials, the FY 2013 estimate
included more infrastructure costs (such as failure analysis, and tester maintenance and
replacement) than the FY 2011 estimate. Additionally, it is important to note the revised unit
cost of $97,000 is an estimated cost and that SNL has until the UK shipments begin in FY 2015
to generate its final cost per unit.

Full cost recovery is required when Department facilities are used to provide goods or services to
non-federal customers. While Federal Policy and Department Orders state that full cost recovery
shall include all direct and allocable costs, they do not provide an exact definition of these costs.
However, due to SNL's inconsistent cost methodology, there is a risk that NNSA may not be
fully compensated for the cost of building NG units for the UK. As noted above, SNL is
working towards designing an improved cost tracking system that will allow it to more
accurately track costs associated with all units produced, including the UK units.

PATH FORWARD

Given SNL's ongoing actions to address NG production issues and costing methodology, we are
not making any recommendations. However, in light of the importance of meeting the NG
production requirements, we suggest that the Manager, Sandia Field Office direct SNL to:

   1. Remain vigilant to ensure that required NG production deliverables are achieved; and

   2. Continue evaluating unit costing methodologies to ensure full cost recovery of the NGs
      produced for the UK.

Attachment



                                                 4
cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                              5
                                                                                       Attachment




                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the National Nuclear Security
Administration (NNSA) is effectively managing neutron generator (NG) activities for weapon
systems.

SCOPE

We performed this audit from November 2013 to August 2014, at Sandia National Laboratories
(SNL) in Albuquerque, New Mexico and the NNSA Albuquerque Complex in Albuquerque, New
Mexico. The audit was conducted under Office of Inspector General Project Number A14AL006.

METHODOLOGY

To accomplish the objective, we:

   •   Reviewed Departmental criteria and SNL policies, procedures, functions and
       responsibilities for performance of NG development and production activities;

   •   Interviewed key Federal and contractor personnel associated with the NG program;

   •   Toured NG facilities at SNL, including design and production areas;

   •   Reviewed prior assessments and reports related to NG activities; and

   •   Evaluated NNSA policies, procedures and staffing for oversight of NG activities.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Accordingly, the audit included tests of
controls and compliance with laws and regulations to the extent necessary to accomplish the
objective. We considered the GPRA Modernization Act of 2010 as necessary to accomplish the
objective and determined that performance measures related to the NG program were established
as required. Because our review was limited, it would not have necessarily disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not rely on computer-
generated data to satisfy our objective.

Management waived an exit conference.




                                               6
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                               Office of Inspector General (IG-12)
                                      Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
